<html>
<title> - EPA'S ROLE IN PROMOTING WATER USE EFFICIENCY</title>
<body><pre>[Senate Hearing 111-1183]
[From the U.S. Government Publishing Office]




                                                     S. Hrg. 111-1183

                        EPA'S ROLE IN PROMOTING
                        
                          WATER USE EFFICIENCY
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 of the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS
                      
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
       
                                  ______
                                      
                  U.S. GOVERNMENT PUBLISHING OFFICE 

94-025 PDF                  WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       

                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 31, 2009
                           OPENING STATEMENTS

Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     1
Crapo, Hon. Mike, U.S. Senator from the State of Idaho...........     1
Boxer, Hon. Barbara, U.S. Senator from the State of California, 
  prepared statement.............................................    36
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   125

                               WITNESSES

Shapiro, Michael H., Acting Assistant Administrator, Office of 
  Water, U.S. Environmental Protection Agency....................    12
    Prepared statement...........................................    14
    Responses to additional questions from:
        Senator Cardin...........................................    27
        Senator Inhofe...........................................    29
Davis, Martha, Executive Manager for Policy Development, Inland 
  Empire Utilities Agency........................................    37
    Prepared statement...........................................    40
Dickinson, Mary Ann, Executive Director, Alliance for Water 
  Efficiency.....................................................    49
    Prepared statement...........................................    51
    Response to an additional question from Senator Boxer........    76
    Responses to additional questions from Senator Inhofe........    78
Shannon, Mark A., James W. Bayne Professor, Director of the 
  Center of Advanced Materials for the Purification of Water and 
  Systems, University of Illinois at Urbana-Champaign............    83
    Prepared statement...........................................    85
    Responses to additional questions from Senator Inhofe........   104
Mehan, G. Tracy III, Principal, The Cadmus Group, Inc............   107
    Prepared statement...........................................   109
    Responses to additional questions from Senator Inhofe........   117

 
              EPA'S ROLE IN PROMOTING WATER USE EFFICIENCY

                              ----------                              


                        TUESDAY, MARCH 31, 2009

                               U.S. Senate,
         Committee on Environment and Public Works,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Benjamin Cardin 
(chairman of the subcommittee) presiding.
    Present: Senators Cardin, Crapo, Whitehouse, and Udall.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Good morning, everyone. The Subcommittee on 
Water and Wildlife for the Environment and Public Works 
Committee will come to order.
    I first want to acknowledge this being our first 
Subcommittee hearing on an extremely important subject dealing 
with water efficiencies. I want to acknowledge the support of 
Senator Boxer for allowing the Subcommittee to move forward 
with this first hearing on water efficiency, and thank her for 
her leadership on water and wildlife issues.
    We are going to deviate for a moment. Senator Crapo, who is 
the Ranking Republican on the Committee, and we appreciate his 
attendance, has about three other places that he is supposed to 
be right now, including a markup on some very important 
legislation. So I am going to yield to Senator Crapo, and then 
we will move forward with the hearing.

             OPENING STATEMENT OF HON. MIKE CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman. I 
appreciate your accommodation.
    As things would have it, not only do I have this first 
hearing that is very, very important for me to work with you 
on, but I have a markup on legislation where I have one of the 
key amendments that I need to go propose, plus the Finance 
Committee is having a hearing, but the beginning of that 
hearing is going to be a tribute to Senator Baucus for his 30 
years of service. So I am expected to be there, too. So I 
appreciate you understanding my time constraints.
    I will just submit my opening statement for the record, but 
wanted to say publicly how much I appreciate working with you. 
We have sat down and had discussed the agenda items that this 
Committee could and should be focusing on, and you and I are in 
agreement on the importance of these issues and the agenda 
which we will follow. I look forward to working with you.
    To our witnesses, I have reviewed your testimony, and I 
hope I can get back for some question and answer period, but no 
matter how it turns out, I again want to thank you, Mr. 
Chairman, for your friendship and for working with me on this 
Committee.
    [The prepared statement of Senator Crapo follows:]

              Statement of Hon. Mike Crapo, U.S. Senator 
                        from the State of Idaho

    Good Morning. Thank you, Mr. Chairman, for holding this 
hearing today.
    Before I speak on the topic of today's hearing and welcome 
our witnesses, I would like to briefly say that I have enjoyed 
our recent discussions on this Subcommittee's agenda for the 
111th Congress and I look forward to our continued work 
together. I might also add that the only thing I am looking 
forward to more than a field hearing on the Chesapeake Bay is 
having one in Idaho, particularly near one of our many 
beautiful rivers with lots of fish.
    Today's hearing will focus on promoting water use 
efficiency and how the Environmental Protection Agency can work 
with local communities in furtherance of that important 
mission. As such, I am pleased that we are being joined today 
by Dr. Michael Shapiro, the Acting Assistant Administrator for 
the Office of Water at EPA. I also welcome our other 
witnesses--Mr. Mehan, Dr. Shannon, Ms. Dickinson and Ms. Davis. 
I look forward to hearing your testimony and discussing this 
important issue with you.
    A recent article in the Wall Street Journal discussed how 
some power companies are beginning to look at ways to meet 
energy needs while using significantly less water than had been 
used in the past, due to increasing concerns about water 
availability and its use. The article details how some 
companies are halting plans to build traditional power plants 
that require significant amounts of water because, in some 
States, water is a very limited resource. We know this all too 
well in the West, where water is considered the lifeblood of 
many local communities and economies and where population 
growth and increasing needs are making efficient use of this 
precious resource all the more important.
    Issues of water efficiency are critical in Idaho, and 
throughout much of the Country. In Idaho's case, limited water 
availability, drought and wildfires make efficient use of water 
highly important. It will only become more of a priority as 
emergencies, needs and populations continue to grow and States 
and local governments continue to be hard-pressed by the 
economic situation that we face. As such, it is all the more 
important that States and localities are able to receive help 
from the EPA, and that the agency understands and is willing to 
help address the needs of State and local governments without 
implementing unreasonable, costly, one-size-fits-all mandates.
    I also want to take a moment to acknowledge the innovative 
and important work being done by water systems, product 
manufacturers, the public sector, universities, and the 
American people to meet the challenges of making more do with 
less. Innovation continues to be led by those most closely 
involved in the provision and use of the service, and it is 
critical that public policies are framed in a permissive way 
rather than in a command-and-control fashion. We should 
continue to provide the resources to the EPA and others to 
undertake research and development into water efficiency 
technologies, but we should also recognize that system 
operators and their customers know best what can and will work 
in their own situations. This has been the guiding policy of 
this committee for many years in the crafting of legislation in 
this arena.
    Finally, we should take a moment to applaud the investments 
and steps taken by the end-use customers to be good stewards of 
the finite resource of water. Efforts to encourage and reward 
water use management have great promise to build on the 
progress and gains made by the consumer, who we must never 
forget is the focus of our activities and this hearing today.
    Mr. Chairman, I know that the Committee is more interested 
in listening to the witnesses than in listening to me, so I 
will save the rest of my views for questions to the witnesses. 
Again, thank you for holding this hearing and I look forward to 
the testimony.

    Senator Cardin. Well, Senator Crapo, let me acknowledge the 
fact that our staffs have had a chance to meet, we have had a 
chance to meet. I think both of us understand the importance of 
the jurisdiction of our Subcommittee in protecting the waters 
of our Nation for the environment and for safe drinking and 
supply, and I look forward to working with you.
    I do have a few issues in the Senate Finance Committee, so 
I hope that you will get there quickly and establish a 
relationship that perhaps our friendship will help me get those 
bills out of the Finance Committee.
    [Laughter.]
    Senator Crapo. You got a deal.
    Senator Cardin. Without objection, your opening statement 
will be made part of the record.
    Senator Crapo. Thank you.
    Senator Cardin. I would ask unanimous consent that the 
testimony of Patricia Mulroy, General Manager of the Southern 
Nevada Water Authority be included in the record, at the 
request of Senator Harry Reid of Nevada.
    Without objection, that statement will also be made part of 
the record.
    [The referenced document follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. First, let me say that today's hearing will 
focus on the role the Environmental Protection Agency must play 
in making our Nation more efficient in the way we use our 
water. For so many of us, we can turn on the tap or the washing 
machine or the dishwasher and have all the water we need to 
drink, to wash, and to water our lawns. We don't think about 
how much water we use in our daily lives, let alone the vast 
amount of water it takes to grow our food, to manufacture the 
goods we depend upon, or to produce the energy we need to power 
our Nation.
    Water seems to be so abundant, in fact, that we often 
forget how precious it is and what a limited resource we have. 
EPA data shows how much water we use. The agency reports that 
water use in the United States is increasing every year. Since 
1950, the United States' population has increased nearly 90 
percent, yet our use of water has increased 209 percent. 
Americans now use on average 100 gallons of water per day every 
day per person.
    This increased use is placing pressure on our water supply. 
In the last 5 years, nearly every region of the Country has 
experienced water shortages. At least 36 States are 
anticipating local, regional or statewide water shortages by 
2013. In my own State of Maryland, we are one of those States. 
Population growth and changing growth patterns are placing 
increased pressure on water resources across my State.
    In central and western Maryland, the Maryland Department of 
the Environment has found that there is not enough water for 
some of the planned growth activities. Water level in the 
aquifers in southern Maryland and the eastern shore are 
declining at a significant rate, with water levels in some 
being tens to hundreds of feet below their original levels.
    Drought is intensifying these shortages in regions across 
the Country. We know in California, Governor Arnold 
Schwarzenegger declared a state of emergency this February due 
to drought, and the State is considering mandatory rationing. 
NOAA reports that the Great Lakes, which supply drinking water 
to more than 40 million U.S. and Canadian residents, are 
experiencing record low levels. The southeast is again 
suffering from drought. This is Texas's driest winter since 
records began in 1895.
    According to a 2006 NOAA report, drought in the United 
States is estimated to result in average annual losses of 
between $6 billion to $8 billion across the sectors of our 
economy.
    Climate change-related effects are predicted to place even 
greater stress on water resources in many areas of the Country. 
The Intergovernmental Panel on Climate Change's 2007 assessment 
projects that declining amounts of water stored in glaciers and 
snow covers will reduce the water available to one-sixth of the 
world's population.
    The IPCC also predicts droughts will become more severe and 
longer lasting in a number of regions. The 2007 Ohio State 
University study projects that coastal communities could lose 
up to 50 percent more of their fresh water supplies than was 
previously thought. As sea levels rise, salt water will move 
inland and turn underground fresh water supplies brackish and 
undrinkable.
    Water shortages aren't the only reason we should be looking 
at ways to be more efficient with our water. Our current water 
use system based largely on centralized infrastructure that 
pipes in clean water and pipes away wastewater is inefficient 
and expensive. Our massive network of water pipes are broken 
and leaking. The American Society of Civil Engineers rates our 
water infrastructure at D-minus and estimates a 5-year 
investment need of $255 billion.
    A survey conducted in 2000 suggests that more than 85 
percent of Maryland water systems lose at least 10 percent of 
the water they produce, with the estimated average between 15 
percent to 20 percent. In a needs survey released just last 
week, EPA estimates it will cost $5.4 billion over the next 20 
years to repair and retain Maryland's drinking water 
infrastructure alone.
    Plus, our system is increasingly energy intense. It is 
estimated that 10 percent of our Nation's imported energy goes 
to treating and pumping water.
    So we can make huge progress here, not only on the supply 
of water, but the supply of energy. In recent years, 
fluctuating gas prices, the threat of climate change, and our 
vulnerability to parts of the world that don't like us much has 
made most of us realize that we have to change the way that we 
deal with energy. We realize with growing clarity that we have 
to move more toward greater energy efficiency and renewable 
technologies.
    But too many of us don't yet see that we need also to 
change the way we use water. With better investment in research 
and development, with public education, with better incentives 
to use water-efficient technologies, we can begin to change 
public perception and change the way we use water.
    I want to acknowledge that many of our States are leading 
us in this direction by offering incentives for water 
efficiencies in appliances and products. Water efficiency in 
green technology and demonstration projects are also helping us 
explore ways in which we can be more water efficient.
    EPA's WaterSense project has also been effective in 
bringing public attention to water efficiencies. And the House 
of Representatives recently passed H.R. 631, which I think is a 
bill that we need to take a look at, which puts a spotlight on 
water efficiency through research and demonstration projects.
    We can make sure we have the water we need to maintain our 
standard of living and ensure future economic growth. We can 
seize an economic opportunity to become an exporter of a new 
approach to water, and the technologies that go with it, to the 
rest of the world, but we have got to be more aggressive and 
with a greater sense of urgency if we are going to be able to 
accomplish these goals.
    I look forward to this hearing from our distinguished 
panelists today in helping us figure out how we can move 
forward with this vision for America.
    With that, we will turn to our first witness. I am very 
pleased that we have Michael Shapiro here, the Acting Assistant 
Administrator, Office of Water, U.S. Environmental Protection 
Agency. We appreciate you being here. Your entire statement 
will be made part of the record for all of our witnesses today, 
and you now may proceed as you see fit.
    [The prepared statement of Senator Cardin follows:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Today's hearing will focus on the role the Environmental 
Protection Agency must play in making our Nation more efficient 
in the way we use our water. For so many of us, we can turn on 
the tap, or the washing machine, or the dishwasher, and have 
all the water we need to drink, to wash and to water our lawns. 
We don't think about how much water we use in our daily lives, 
let alone the vast amounts of water it takes to grow our food, 
to manufacture the goods we depend on and to produce the energy 
we need to power our economy. Water seems so abundant, in fact, 
that we often forget it's a precious and limited resource.
    EPA data shows how much water we use. The agency reports 
that water use in the United States is increasing every year. 
Since 1950, the United States population increased nearly 90 
percent. In that same period, public demand for water increased 
209 percent. Americans now use an average of 100 gallons of 
water per person each day.
    This increased use is placing pressure on our water supply. 
In the last 5 years, nearly every region of the Country has 
experienced water shortages. At least 36 States are 
anticipating local, regional, or statewide water shortages by 
2013.
    Maryland is one of those States. Population growth and 
changing growth patterns are placing increased pressure on 
water resources across the State.
    In central and western Maryland, the Maryland Department of 
the Environment has found that there is not enough water for 
some planned growth. Water levels in the aquifers of southern 
Maryland and the Eastern Shore are declining at a significant 
rate, with the water level in some being tens to hundreds of 
feet below their original levels.
    Drought is intensifying these shortages in regions across 
the Country. In California, Governor Arnold Schwarzenegger 
declared a State emergency this February due to drought and the 
State is considering mandatory water rationing. NOAA reports 
that the Great Lakes, which supply drinking water to more than 
40 million U.S. and Canadian residents, are experiencing record 
low levels. The southeast is again suffering from drought. This 
is Texas' driest winter since records began in 1895.
    According to a 2006 NOAA report, drought in the U.S. is 
estimated to result in average annual losses of between $6 
billion to $8 billion across all sectors of the economy.
    Climate change related effects are predicted to place even 
greater stress on water resources in many areas of the Country. 
The Intergovernmental Panel on Climate Change's 2007 assessment 
projects that declining amounts of water stored in glaciers and 
snow cover will reduce the water available to one-sixth of the 
world's population. The IPCC also predicts droughts will become 
more severe and longer lasting in a number of regions. A 2007 
Ohio State University study projects that coastal communities 
could lose up to 50 percent more of their freshwater supplies 
than was previously thought. As sea levels rise, the saltwater 
will move inland and turn underground freshwater supplies 
brackish and undrinkable.
    Water shortages aren't the only reason we should be looking 
at ways to be more efficient with our water. Our current water-
use system, based largely on centralized infrastructure that 
pipes in clean water and pipes away wastewater, is inefficient 
and expensive. Our massive networks of water pipes are broken 
and leaking. The American Society of Civil Engineers rates our 
water infrastructure a D^ and estimates a 5-year investment 
need of $255 billion.
    A survey conducted in 2000 suggested that more than 85 
percent of Maryland water systems lose at least 10 percent of 
the water they produce, with the estimated average between 15 
percent and 20 percent. In a needs survey released just last 
week, EPA estimates it would cost $5.4 billion over the next 20 
years to repair and retain Maryland's drinking water 
infrastructure alone. Plus, our system is incredibly energy 
intensive. It's estimated that 10 percent of our Nation's 
imported energy goes to treating and pumping water.
    In recent years, fluctuating gas prices, the threat of 
climate change, and our vulnerability to parts of the world 
that don't like us much have made most of us realize that we 
have to change the way we get our energy. We realize with 
growing clarity that we've got to move toward greater energy 
efficiency and renewable technologies. But too many of us don't 
yet see that we also need to change the way we use water.
    With better investment in research and development, with 
public education, and with better incentives to use water-
efficient technologies we can begin to change public perception 
and change the way we use water.
    We can make sure we have the water we need to maintain our 
standard of living and ensure future economic growth. We can 
seize an economic opportunity to become an exporter of a new 
approach to water--and the technologies that go with it--to 
rest of the world. But we have got to move aggressively and 
with a greater sense of urgency.
    I look forward to hearing from our distinguished panelists 
today on what steps EPA can take and this Congress can take to 
make that vision a reality.

       STATEMENT OF MICHAEL H. SHAPIRO, ACTING ASSISTANT 
 ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Mr. Shapiro. Good morning, Mr. Chairman. It is a pleasure 
to be here and I thank you for your leadership on this 
important issue.
    I will be discussing EPA's efforts to promote increased 
water conservation and efficiency. My full statement will be 
made available for the record. I will summarize briefly a few 
key points.
    Too often, we take for granted a system that provides 
reliable and safe water, as you have pointed out. Headlines 
about water crises in different parts of the U.S. and the world 
have raised the collective awareness about this precious 
resource.
    States and communities across the Nation are facing 
difficult challenges in meeting their water resource needs. A 
report by the Government Accountability Office in 2003 
indicated that 36 States projected water shortages by 2013. 
Continued population growth and the impacts of climate change 
are likely to further challenge our ability to provide reliable 
and safe water.
    Improving water efficiency is one of the most effective 
ways for communities to manage their supplies. Moreover, 
increased water use efficiency will reduce utility operating 
and maintenance costs and reduce the need for expensive new 
infrastructure.
    EPA is working to foster a national ethic of water 
efficiency so that water is valued as a limited resource that 
should be used wisely. In June 2006, we announced WaterSense, 
an innovative partnership program that helps American 
consumers, businesses and governments make smart choices that 
save money and maintain high environmental standards, without 
compromising performance or requiring lifestyle changes.
    Products with the WaterSense label use at least 20 percent 
less water and perform as well or better than conventional 
models. In developing specifications, EPA works with voluntary 
consensus standard organizations, utility research committees, 
trade groups, and universities to develop information on 
product efficiency and performance. To earn the label, products 
must be independently tested and certified by a third party to 
meet EPA's criteria for efficiency and performance. This 
distinctive approach has been identified as a key strength of 
the WaterSense program by many stakeholders.
    In less than 3 years and with the help of more than 1,000 
partners nationwide, WaterSense has become a national symbol 
for water efficiency. The label can now be found on more than 
700 varieties of water-efficient faucets and accessories and 
over 250 models of high-efficiency toilets.
    EPA has developed a WaterSense certification program for 
irrigation designers, auditors, and installation/maintenance 
professionals that focuses on water-efficient landscape 
irrigation techniques.
    We are also developing a New Homes label that is designed 
to reduce water consumption by setting criteria for both indoor 
and outdoor water use and by educating homeowners about water 
efficiency. This year, we plan to issue final specifications 
for high efficiency flushing urinals that will use 50 percent 
less water than standard models, and we will also develop a 
draft specification for high efficiency shower heads.
    Water efficiency doesn't only result in water savings, as 
you have pointed out. Delivering water to homes requires a 
great deal of energy. The potential for preserving our water 
supply for future generations and reducing energy demand 
through this voluntary program is significant, and WaterSense 
will continue working on other residential and commercial 
products.
    As I mentioned earlier, our efforts to promote water 
efficiency depend upon a national network of partners who help 
us with our product specifications, marketing, and consumer 
education. For example, the Alliance for Water Efficiency is 
establishing a water efficiency information clearinghouse that 
will complement EPA's activities.
    We are also coordinating with EPA's Energy Star program, 
the U.S. Green Building Council's LEED program, and the 
National Association of Home Builders' Green Building program 
to incorporate WaterSense criteria into these broader energy 
efficiency and green building initiatives.
    Additionally, EPA's sustainable infrastructure efforts look 
more broadly at water efficiency and asset management. We are 
working with public officials and utility managers and their 
professional organizations to identify strategies and tools for 
reducing water loss from systems, especially in the 
distribution system.
    Clearly, it is important to carefully consider how the 
water resources of this Nation are used and how we can 
effectively manage into the 21st century. We have come a long 
way in a very short time with our WaterSense and sustainable 
infrastructure programs. As the stresses on our water resources 
grow, the need for the products and services we are developing 
through WaterSense will become even more important.
    We look forward to working with our stakeholders and 
Congress as we look to expand EPA's efforts in these areas.
    I ask that my full statement be submitted for the record 
and I look forward to addressing any questions you may have.
    Thank you.
    [The prepared statement of Mr. Shapiro follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Well, first, Mr. Shapiro, let me compliment 
you on sticking exactly to 5 minutes.
    [Laughter.]
    Mr. Shapiro. We worked hard on that.
    Senator Cardin. Let me thank you for your testimony, and 
thank you for your leadership on these issues.
    Unlike the Energy Star program, the WaterSense program does 
not have formal authorization. Would formal authorization by 
Congress help in what you are trying to do with the WaterSense 
program?
    Mr. Shapiro. Well, I think it would be beneficial in a 
couple of ways. First, direct recognition by Congress of the 
importance of the program and its role I think would further 
support our efforts at outreach and communication, and give the 
program additional visibility.
    Also, as I understand it, there are, although in general we 
have been fairly successful to date in launching the WaterSense 
program, there are certain bounds as to how far we can go, for 
example, in endorsing products with the WaterSense label 
because we don't have a separate authorization that would allow 
it as the Energy Star program does.
    So there I think are areas where a specific authorization 
would add some benefits to our existing program.
    Senator Cardin. Could you give a little bit more detail as 
to what are the standards for WaterSense? I particularly want 
you to comment, if you would, on the IG's findings in regards 
to Energy Star that there have been, at least at times, 
products that have been given the rating that have not fully 
complied with the standards. So are you concerned that we might 
be running down a path in which we are giving a stamp of 
approval when in fact that's not the case?
    Mr. Shapiro. Well, I think that in the case of the 
WaterSense program, we have a program design that really I 
think limits the ability to misrepresent products. The 
manufacturers themselves cannot claim that they meet a 
WaterSense standard unless their products have been tested and 
certified by an independent third party, and that third party 
itself is authorized through a process that meets international 
standards for independent certification programs.
    So in order to maintain that certification, the 
manufacturer or service provider has to continually demonstrate 
that they are conforming with the standard. The standards that 
we developed are done as collaboratively as possible so that we 
build wherever possible on standardized testing techniques and 
measures that have already been approved or supported by 
national consensus bodies.
    So we think we have put a program in place that limits the 
ability for misrepresentation because of the third party 
certification process, and we certainly feel that once the 
manufacturers invest in this process, they will certainly be on 
the look out for folks that are trying to evade the system and 
misrepresent their products as well.
    Senator Cardin. Now, I strongly support the WaterSense 
program and applaud you for the initiative, and personally 
believe it would have more legitimacy if it were authorized. 
There is a real concern about getting more public interest and 
knowledge about the importance of water efficiencies, so I 
think it makes sense for Congress to act in this area.
    The IG, though, pointed out that at least in the energy 
program there as not much opportunity for oversight for those 
who used the label to find out whether in fact they were 
complying with the standards. It is one thing for a 
manufacturer to say that they have used third party 
verification. It is another thing in fact that their products 
meet what they say they meet.
    So are we going to be creating a problem if we have an 
authorized program for WaterSense in monitoring and making sure 
that in fact the products that are labeled WaterSense meet what 
the manufacturer says it is going to meet. How do we oversee 
that?
    Mr. Shapiro. Well, again the certification process includes 
testing the products as they come off the manufacturing line on 
a periodic basis. So again, you can't be 100 percent sure, and 
I think at the end of the day if products are not performing, 
we will have a responsibility, and we do have a responsibility, 
to identify those manufacturers who aren't playing by the rules 
and take appropriate measures to deal with them.
    However, again our experience to date has been that the 
process that is designed, which again is built on models where 
there is independent verification of certification, will give, 
should give the consumers a lot of confidence that the products 
bearing the label in fact will perform as certified and as 
tested.
    Senator Cardin. Your testimony points out the importance of 
green infrastructure. I would like to explore that a little bit 
more as to how EPA can be more helpful in promoting green 
infrastructure. Are there things that Congress should be 
looking at to give you more tools to move forward in this area?
    Mr. Shapiro. Well, I think at this point we have the tools. 
Green infrastructure, as you know, generally involves applying 
concepts of natural hydrology to deal with stormwater 
management, so we look at naturalistic systems for increasing 
infiltration, for reducing the peak surge flows that occur as a 
result of storms in areas with traditionally a lot of 
impervious pavement, and encourage evapotranspiration as ways 
of managing the stormwater runoff. And in many cases, helping 
to recharge groundwater.
    I think there is a lot of understanding about how many of 
these systems, such as infiltration swales and bioretention 
facilities and rain gardens work on an individual basis. What 
we need to do and we have begun to do is research to help us 
understand how these individual approaches can operate within 
an entire watershed to manage the water resource on a more 
integrated basis.
    Again, progress is being made in that area. There is a lot 
of good work being done. So our tools and techniques are 
improving dramatically. I think there has traditionally been a 
reluctance to, on the part of water utilities, to adopt some of 
these measures. We are beginning to overcome that through the 
provision of information and technical training. And certainly 
the stimulus bill and the provision for a 20 percent setaside 
for green projects, which include green infrastructure, I think 
will provide additional incentives for water utilities to begin 
to look at these tools more frequently as they are making 
design choices.
    Senator Cardin. Well, I visited a green building in Howard 
County not too long ago, Howard County, Maryland, which is I 
think a model for a company that is innovative in green 
technology, building a building to operate that reflects that 
commitment, where they do have the rain gardens and they do 
recycle the stormwater and they do, I think, put it all 
together in a way that it should be, reflective of saving 
energy, being friendly toward our environment, and conserving 
water. All that is built into the technology.
    Now, that is done in partnership with a local government, 
which has been a supportive partner. The EPA has programs that 
will allow you to participate in these types of ventures, but 
you don't have a separate research arm devoted toward water 
efficiencies. The House bill tries to do something about that 
by establishing an authorization for, and a person to deal with 
water efficiency research, and then allows for demonstration 
programs.
    Would that be useful for you to spotlight the water 
efficiency issue? Or should we continue down the path of 
strengthening EPA's ability to deal in a broader sense, 
expecting that there would be attention paid to water 
efficiency issues?
    Mr. Shapiro. Well, I think there are sort of multiple 
questions in there. As you know, the Administration hasn't 
taken a position on that House bill. I think that bill focuses 
specifically, as you say, on research relating to water 
efficiency. I think there are some areas of research within EPA 
today, especially relating to green infrastructure and the 
detection and correction of leaks in grey infrastructure that 
we are working very hard on.
    At the moment, EPA doesn't have a research component that 
focuses on especially consumer and commercial water-using 
products and appliances. There are a number of external 
organizations to EPA that we rely on today to get the 
information that we use to develop our WaterSense criteria. And 
I think in looking at where to put funding in different areas, 
I think Congress would have to judge whether opening up an 
additional focus area for EPA's research versus other 
organizations that may already be playing in that area is the 
best use of money for water efficiency purposes.
    Again, I think the overall needs for research and 
information to support a more efficient and sustainable water 
infrastructure is significant overall.
    Senator Cardin. Well, that was a very fine, diplomatic 
answer considering the agency has not taken a position. That 
was as positive of a response that I think you could have 
given. I thank you for that.
    Here is our dilemma. Let me tell you why I think we do need 
legislation similar to what the House has passed. We may want 
to take a look at it and see whether we can't improve upon 
that. But we have huge problems in this Country, and as we look 
in Baltimore, we have aging pipes that need to be replaced. We 
are in the process of replacing some. The cost is well beyond 
the capacity of the local governments, and they are under court 
orders because of environmental violations.
    But we really haven't taken a focus as to the cost benefit 
ratios on water efficiencies, which I think would be very 
helpful to have that type of information available as we make 
decisions on how to proceed locally, as well as a national 
strategy.
    So I think having the information base, and President Obama 
talked frequently about having decisions made by best science 
and best information, it would be useful to be able to know the 
cost benefit ratios on dealing with water efficiency issues. 
And I don't think you really have that capacity today within 
EPA. You do look at these issues, but it is not the center 
focus. It becomes perhaps the byproduct of other research that 
you are doing.
    So I think what Congressman Matheson was doing in the House 
bill has merit for us to take a look at here. And the reporter 
doesn't show those nods, so we will just reflect the fact that 
there was a friendly smile at the Chair.
    [Laughter.]
    Senator Cardin. Again, let me thank you for your testimony. 
We look forward to working with you on this issue. Obviously, 
this is the first hearing of our Subcommittee, but the first 
hearing I think Congress has had, the Senate has had on this 
issue. And I know that the Chairman is interested in this and 
other Members are interested in this, and we will be getting 
back to you I think for specific additional information that we 
may need from you.
    Mr. Shapiro. Thank you very much.
    Senator Cardin. Thank you.
    I would also ask unanimous consent that Senator Boxer's 
statement be made part of the record. She is on the Senate 
floor this morning working on an amendment to the budget 
resolution, and asked me to welcome our witnesses from her home 
State of California on her behalf.
    [The prepared statement of Senator Boxer follows:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    We are here today to review EPA's efforts to promote water-
use efficiency.
    I would like to extend a special welcome to my fellow 
Californian, Martha Davis from the Inland Empire Utility 
Agency. Ms. Davis will be testifying about her agency's 
innovative efforts to better use California's precious water 
resources.
    The topic of today's hearing is very important to me and to 
my home State of California, and I would like to thank the 
Subcommittee Chair, Senator Cardin, for holding this hearing.
    In California, we are currently in the third year of one of 
the worst droughts in the State's history. Reservoirs are at 
historically low levels, dozens of water agencies have already 
ordered water rationing, and just last month, the Governor 
declared a State-wide water emergency.
    But California is not alone in the water problems that we 
face. A 2003 GAO survey of State water managers showed that 36 
States expected water shortages by the year 2013.
    The pressures on our water resources will increase in the 
future. Population in the U.S. is expected to grow 30 percent 
by 2030. And global warming is predicted to increase the 
occurrence of drought and reduce the reliability of water 
supplies.
    There are a number of options that can be implemented now 
to deal with today's water crises and prepare for a future of 
growing demand and less water. Water reclamation and recycling, 
groundwater cleanup and more water efficient products are all 
technologies that are currently available.
    I look forward to hearing from today's witnesses on how EPA 
can help communities implement these environmentally beneficial 
water infrastructure projects.
    There are also emerging technologies, such as lower energy 
desalination and innovative water recycling systems, that show 
great promise. We should invest in research and development to 
help ensure that good water management ideas like these are 
available to address this growing problem.
    I believe that today's hearing will help us to better 
understand EPA's role in addressing this challenge.

    Senator Cardin. We will now go to the second panel, which 
includes Martha Davis, the Executive Manager for Policy 
Development, Inland Empire Utilities Agency; Mary Ann 
Dickinson, Executive Director, Alliance for Water Efficiency; 
Mark A. Shannon, the James W. Bayne Professor, Director of the 
Center of Advanced Materials for the Purification of Water With 
Systems, University of Illinois at Urbana-Champaign; and G. 
Tracy Mehan, III, Principal, The Cadmus Group, Inc.
    Welcome all of you, and particularly those who are from 
California from our Chairman, welcomes you, and I am supposed 
to make sure that you are well taken care of in the Committee.
    So Ms. Davis, you are from California, I take it?
    Ms. Davis. Actually, I was [remarks off microphone].
    Senator Cardin. Well, under those circumstances, you can go 
first.
    [Laughter.]

    STATEMENT OF MARTHA DAVIS, EXECUTIVE MANAGER FOR POLICY 
          DEVELOPMENT, INLAND EMPIRE UTILITIES AGENCY

    Ms. Davis. Thank you, sir. I will try to emulate Mr. 
Shapiro's brevity.
    Mr. Chairman, thank you for the opportunity to present 
testimony [remarks off microphone].
    My agency is located in San Bernardino in Southern 
California. We are a wholesale water district formed in 1950 to 
distribute imported water supplies and we are a member of the 
Metropolitan Water District of Southern California.
    We also provide regional wastewater treatment for over 
850,000 residents and we are proud to provide three products to 
our community: recycled water, compost and renewable energy.
    Mr. Chairman, for the record, I am supplying an updated 
corrected copy of my statement. I would like to emphasize three 
points from my testimony. First, these are challenging times 
for all water managers. As you pointed out in your opening 
statement, our Nation's population continues to grow, there are 
increasing conflicts over existing water supplies, which in 
California and many other places have led to court rulings and 
regulatory developments that constrain these deliveries.
    Climate change adds an entirely new variable as rising 
temperatures will increase water demands at the same time that 
rainfall patterns shift and droughts become both more severe 
and more erratic.
    Water agencies throughout the Nation are responding by 
implementing water efficiency programs. Last year, California's 
Governor Schwarzenegger called for a 20 percent mandatory 
reduction in per capita water usage by 2020, which translates 
into a potential 1.74 million acre feet of additional water 
supplies for the State of California.
    The State water plan, which has just been released, 
recognizes water use efficiency as a central element of the 
State's strategy to enhance water supply reliability, restore 
ecosystems and respond to climate change.
    Clearly, improving the efficiency of appliances both 
indoors and outdoors so that we can structurally build in water 
savings is a vital part of transforming the Nation's water use. 
I have had an opportunity to review Ms. Dickinson's testimony 
and concur with the recommendations put forward for expanding 
the WaterSense program. There are many synergies with the very 
successful Energy Star program, and opportunities to combine 
the two should be implemented.
    Second, many of our water projects throughout the Nation 
were designed decades ago and were built around the concept of 
using water once and then discharging it. Yet if water is 
recycled and reused, it stretches out water supplies with three 
primary benefits.
    First, recycled water is drought proof, which means it is 
available when other supplies are not. Second, the reliability 
of recycled water means that it is a core supply that agencies 
can rely upon to help adapt to climate change impacts. And 
third, having recycled water as part of an agency's supply 
enables our agencies to optimize the delivery of potable 
supplies and non-potable supplies to the appropriate use. What 
we want to do is reserve the best quality water for drinking 
water purposes.
    Similarly, the development of local resources--capture of 
stormwater, rainwater, conjunctive use of our groundwater 
basins, desalination--all are parts of a comprehensive strategy 
to improve water supply reliability. The EPA's State Revolving 
Funds program is a core source of funding for water reuse and 
other local water supply infrastructure, as well as for water 
efficiency.
    So all of these projects--water efficiency, recycling, 
local stormwater capture--all these projects that make improved 
use of existing water supplies, should be recognized as green 
infrastructure, and the funding priority established for these 
projects similar to what occurred under the American Recovery 
and Reinvestment Act of 2009.
    Third, preparing for climate change, both through 
adaptation and mitigation strategies is something our water 
agencies have to start doing now. Our agency participated in a 
National Science Foundation grant that was conducted by the 
RAND Corporation 2 years ago, which concluded that the 
development of a multifaceted strategy, increased water 
efficiency, recycled water, stormwater capture, reclaiming of 
poor quality groundwater supplies, was the most cost-effective 
utility strategy for meeting the impacts of future climate 
change.
    We also know, as you pointed out in your opening statement, 
that the use of water is very energy intensive, with 18 percent 
of the Nation's electricity used to pump, treat and deliver 
water supplies. And we also know that the energy generation 
required to provide this power creates high levels of carbon 
emissions.
    Use of water supplies that have a lower embedded energy 
requirement can significantly contribute to the reduction of 
greenhouse gases, and I provide an example in my testimony 
comparing the use of our recycled water to imported water, 
which is our most energy-intensive water supply because it has 
to be pumped up and over the Tehachapis to come into Southern 
California.
    We can save an estimated 7,500 kilowatt hours per million 
gallons of recycled water used. In real terms, we are on track 
to be able to use 50,000 acre feet of water per year in our 
service area within the next 3 years. And if we do this, this 
is roughly equivalent to taking 6,500 cars off the road every 
single day.
    So clearly, more information is urgently needed to document 
the energy and greenhouse gas emission reduction benefits from 
water efficiency and from the development of local supplies 
that can replace more energy-intensive water supplies.
    In closing, we believe that the U.S. EPA has a core role to 
play in helping to develop information and technologies to 
improve water efficiency and the development of local water 
infrastructure. In my testimony, I called out H.R. 631 as the 
type of legislation that I think is the right approach. Quite 
frankly, it is a modest investment, a down payment if you will, 
on the development of information that will help guide all of 
our water agencies and our Nation to figuring out how to do a 
better job of increasing water efficiency and developing water 
supply reliability, and actually meeting the climate change and 
water supply reliability challenges of the future.
    And I would be happy to answer any questions. Thank you for 
this opportunity to testify before the Subcommittee.

    [The prepared statement of Ms. Davis follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you.
    Ms. Dickinson.

 STATEMENT OF MARY ANN DICKINSON, EXECUTIVE DIRECTOR, ALLIANCE 
                      FOR WATER EFFICIENCY

    Ms. Dickinson. Good morning, Mr. Chairman. Thank you for 
the opportunity to come and testify.
    I represent the Alliance for Water Efficiency, which is a 
North American nonprofit organization composed of diverse 
stakeholders with significant experience in cost-effective 
water conservation programs and policies.
    We represent water utilities, plumbing and appliance 
manufacturers, the irrigation industry, government agencies, 
retailers, academic researchers. We have a list of our 
representatives on the board in our testimony.
    Our mission is to promote the efficient and sustainable use 
of water, to promote the cost-effective measures that you have 
mentioned earlier, Mr. Chairman, that will reduce wasteful 
consumption, reduce the need for additional drinking water and 
wastewater capacity, and provide multiple energy, economic and 
environmental benefits.
    And in that mission, we work closely with the staff at the 
Environmental Protection Agency, as the Nation's steward of 
ambient water quality as well as safe drinking water. They have 
been a very strong promoter of water efficiency's many 
benefits. Programs have existed at EPA for well over 20 years 
in the Office of Water and Wastewater, albeit modestly funded 
and staffed.
    But the limited focus began to grow within EPA with the 
launching of the WaterSense program in 2006. Like it Energy 
Star cousin, WaterSense is aimed at product efficiency, product 
labeling, and consumer messaging. And unlike its Energy Star 
cousin, it is funded at a very modest level, $2.4 million 
annually, 20 times less than the Energy Star program.
    So what we are recommending, as WaterSense being an 
important flagship program with very visible links to the water 
utilities, the private sector and the public, we are 
recommending that that funding level be measurably increased. 
WaterSense has made extraordinary strides in the past 3 years, 
launching a nationwide program, testing and labeling hundreds 
of products such as high efficiency toilets and faucets.
    Their effort in rolling out the program quickly has been 
truly remarkable and commendable. However, it must be 
acknowledged that that quick success was primarily possible 
because important work had already been done in the water 
efficiency community to help pave the way. Now that other 
product specifications need to be fully researched and tested, 
it is critical that WaterSense be provided sufficient funds to 
carry out the mission and to keep its partners engaged.
    The private sector also strongly supports the WaterSense 
program and has demonstrated its desire to be participating 
partners, to see faster progress, and to see the labeling of 
more product categories. By comparison, WaterSense has so far 
been able to label fully three product categories versus Energy 
Star's 60, so there is quite a bit of work to do.
    WaterSense also has some important differences. No label 
goes to a product that isn't 20 percent more efficient than the 
national efficiency standard for that product. And as we have 
already discussed, it is third-party verified. So it provides, 
the label provides the consumer with not only a guarantee of 
water efficiency, but a guarantee of superior performance. So 
the double-flushing toilet of the past will not be returning.
    So to continue this work, we recommend that WaterSense be 
authorized by Congress, to be given official status, not only 
to ensure its longevity, but to signal important policy 
approval from this current Administration. We recommend that 
its funding be increased to at least $10 million annually, 
which is still only one-quarter of the Energy Star program.
    If you leave it at its current annual funding level of $2.5 
million, they will only be able to label one to two product 
categories a year, which is not sufficient to meet the true 
needs that are now in the marketplace. There are literally 
dozens of products waiting to be considered, both in the 
commercial as well as residential sectors. And so addressing 
the largest water use, which is urban irrigation, is a critical 
need that WaterSense must spend considerable time working on 
and working in cooperation with the stakeholder community.
    We also have a number of detailed recommendations for the 
WaterSense program that are contained in our testimony. We have 
also developed very specific recommendations for funding of 
State Revolving Loan Funds and continuing the 20 percent set-
aside that was instituted in the American Recovery and 
Reinvestment Act. We would like to see that 20 percent set-
aside continued, and we would like to see it continued in a way 
that perhaps required planning and water efficiency performance 
improvements in the water utilities that are applying for those 
funds. So we have recommendations in our testimony on that.
    And I would like to conclude by saying that our testimony 
also has a list of water efficiency research needs that were 
developed in response to earlier drafts of Congressman 
Matheson's bill, H.R. 631. We have developed a list of about 
$31 million worth of projects which are just the beginning of 
what we have identified as research opportunities in the United 
States. So clearly, as Martha mentions, $100 million would be a 
very minimal amount to devote to this topic.
    Successfully reducing water consumption requires careful 
examination of products, programs and practices, and the 
research that we are recommending is applied research. It is 
not technical or theoretical. It is applied research that 
guarantees the water savings and documents those cost-effective 
benefit cost savings.
    So we want to thank you for the opportunity for this 
testimony, and I encourage you to take a look at the detailed 
recommendations that we have provided. And I am happy to answer 
any questions you may have.
    Thank you.
    [The prepared statement of Ms. Dickinson follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much.
    Mr. Shannon.

    STATEMENT OF MARK A. SHANNON, JAMES W. BAYNE PROFESSOR, 
     DIRECTOR OF THE CENTER OF ADVANCED MATERIALS FOR THE 
 PURIFICATION OF WATER AND SYSTEMS, UNIVERSITY OF ILLINOIS AT 
                        URBANA-CHAMPAIGN

    Mr. Shannon. Thank you so much for having me, Mr. Chairman. 
I am really excited to be here to talk to you about these 
issues.
    I again am going to hit just some really quick points. We 
passed the 300 million mark and we are growing in population. 
This graph is just to show, if you look at the top graph, the 
top curve there, the green one, that is showing that if we stay 
on the current path of consumption that was outlined actually 
by the Texas Commission, we are going to have to grow our water 
supply by 62 percent by 2040 because of population growth.
    The bottom one is if we conserve, and really conserve. That 
bottom growth details a 60 percent drop in domestic use, 30 
percent in energy, and 20 percent in agriculture. We are still 
going to have to grow water supplies by 29 percent.
    So we are going to have to conserve and we are going to 
have to be efficient with water, and we have to come up with 
new ways to do it. And it is not just averages. This next graph 
projects water use, using the projections from the same Texas 
Commission report for the United States, versus population 
growth, and local areas are going to see dramatic increases in 
demand on water.
    And this is going to be very expensive to try to be able to 
do it, as you noted in your opening remarks about using just 
the current infrastructure approach. It is just going to be 
amazingly expensive.
    So we need new ways to think about this problem. And that 
is what our Center is really trying to do. It is trying to 
understand how we can tackle some of these problems.
    But along with demand, at the same time as you heard 
comments already, we are seeing declines in the actual supply 
because of primarily mining of aquifers and loss of snowpack 
storage. So we are seeing this perfect storm of increasing 
demand and decreasing supply at the same time.
    So rather than just getting morose about this, I really 
like to think about the fact that there are lots of really good 
opportunities out here. We are really far from the natural law 
limits, which means we can do things and separations that we 
haven't done before.
    And we in the United States are really one of the best 
innovators in the world in these types of technologies and 
types of science that we can change the equation fundamentally 
about how we can save large amounts of water and conserve large 
amounts of water. So I think it is very important that we look 
at doing this.
    One of the things you have heard discussed many times now 
is about this connection between water and energy. Well, in 
wastewater there is a huge amount of energy in wastewater that 
we spend a huge amount of energy to destroy currently, with our 
techniques of pumping air and using ozone and chlorine. I mean, 
when you think about it, we burn up, I just calculated, 100 
million kilowatt hours a year just to destroy the energy that 
is in there. And we have new technologies that can recover this 
in a very distributive fashion so that one can put it in like 
in the Solara Building in New York city, where they have put 
these types of treatment right in their basement. They don't 
even discharge it as sewage, and they have cut their water use 
by 50 percent. We can go all the way to 80 percent and not have 
a drop in the standard of living.
    So we don't have to think that water-conservation equation 
means you have to deal with less. That is not necessary.
    So one of those things that I would like to point out is 
that there is a water innovation imperative occurring across 
the world right now. It is very exciting, but unfortunately it 
is not happening in the United States. It is happening in 
Singapore. It is happening in Switzerland, the Netherlands, 
China, India. It is not happening here. Large investments are 
being made. The companies are going there, GE, Siemens, and 
they are investing large dollars there.
    I think we need to lead this imperative here so that we can 
have U.S. companies, U.S. workers help develop these 
technologies that can really fundamentally change our water 
equation.
    So just some quick recommendations. I think we need to 
increase the investment in water R&D to provide these 
technologies so that U.S. companies and workers can do this, 
and all types that you heard discussed here, plus increasing 
water efficiency and energy efficiency at the same time, 
getting low energy reuse and desalination technologies that can 
really fundamentally change the equation. So we don't have to 
sit there and say we can't make up water demand without extra 
supply.
    And I think the EPA would be a perfect place for looking at 
how you can test that, verify it, to diffuse it into the 
marketplace, because we need that diffusion in the marketplace 
to be successful.
    We could create national centers that could focus on 
efforts coming out of our universities and our labs and 
companies so we can make this change. So it is really at many 
different levels that we have to do this. And I think the 
Federal Government can reinvigorate this sector in a way that 
hasn't been seen since, say, the 1960s when they made those 
really early initial investments that we are still benefiting 
from today, those investments in membranes and desalt 
technologies that are now the state of the art. It came out of 
the U.S. It came out of Federal investment, and it would be a 
great opportunity.
    So I want to thank you very much, and I hope that you can 
read my full testimony.
    Thanks.
    [The prepared statement of Mr. Shannon follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. We have. Thank you very much. Appreciate 
it.
    Mr. Mehan.

STATEMENT OF G. TRACY MEHAN, III, PRINCIPAL, THE CADMUS GROUP, 
                              INC.

    Mr. Mehan. Thank you, Mr. Chairman.
    My name is Tracy Mehan. I am Principal with the Cadmus 
Group, an environmental consulting firm. Prior to that, I was 
Assistant Administrator for Water at EPA through 2003.
    Before I start, in my written testimony I mention the 
classic paradox of diamonds and water that Adam Smith 
identified, that we view diamonds, which are purely for 
adornment and decorative use, as priceless, but water we hardly 
put a value on it. That paradox as to the value or lack of 
value we place on water is something we need to address, and 
which I think everyone's testimony here is part of that 
response or that answer.
    When I was at EPA, we came out with the Four Pillars of 
Sustainable Infrastructure, which included full-cost pricing 
and water efficiency, which will be the focus of my testimony 
today. I am pleased to see the progress on the water efficiency 
front. Mary Ann Dickinson is here with the Alliance, which is 
part of the fruits of that effort, as is the WaterSense 
program, both efforts of which I am big fans and supporters and 
urge your continued support of all those efforts.
    I am here basically just with one message to sort of 
supplement all the tremendous things we have heard here today 
and all the worthwhile ideas for research priorities at EPA 
relating to water efficiency, and that has to do with the 
economics and other social sciences which can basically provide 
drivers or incentives to adopt all these wonderful new water 
efficiency technologies, as well as traditional low-tech 
responses such as taking a shorter shower or not watering your 
lawn all night.
    It seems to me that in order to really drive these 
projects, these practices, these technologies into the water 
sector, pricing and water rates are important part of this 
process. At the most basic level, the impetus for water 
efficiency and conservation comes either from just absolute 
scarcity in the real world, or from pricing structures which go 
beyond just mere replacement costs of the hard, grey 
infrastructure.
    In truth, both full-cost pricing for infrastructure and 
water conservation pricing can be complementary or mutually 
reinforcing. Scarcity, of course, is usually the result of 
human need, but we can also experience scarcity in terms of 
ecological function. We can be meeting human needs while 
destroying ecological functions because of unsustainable water 
use.
    So again, these are the kinds of issues I think we can 
address through some economic techniques and certainly through 
rate and price design.
    Many water managers traditionally, and for understandable 
reasons given their professional training, emphasize demand 
management as an engineering problem, rather than economic one. 
They tend to resort to non-price options as they should, in 
many cases, to reduce water use, rather than looking at the 
rate structure or the price increases.
    Again, this is understandable, but not necessarily 
sufficient, and again I think both responses, the engineering 
and the economic, are required. And of course, one barrier we 
have to adopting something like conservation-based pricing of 
demand-based pricing is the fact that we are not really doing a 
cost recovery just for the hard infrastructure right now. Our 
price structure is well below where it should be just to put in 
capital structure, maintain it, operations and maintenance, as 
well as replace it. My paper deals with that issue in some 
detail.
    Traditionally, demand management focused on restrictions 
such as water uses, rationing, promotion of water-efficient 
technologies and fixtures, all of which will continue, all of 
which is important. And these non-price demand management 
actions were favored, again as I say, because managers did not 
believe that consumers necessarily changed their water 
consumption habits in response to changing prices.
    Without spending a lot of time on it, my paper gets into 
greater detail regarding the economic literature on the whole 
issue of the elasticity or inelasticity of response to prices 
in the water realm. I think it is sufficient to say that it is 
an issue that has to be addressed and it is an area for 
fundamental and increased research, again in the economics 
profession and the social sciences generally.
    It comes down to the sophistication of the design of the 
rates, and we get into that in much more detail in the paper. 
Again, a lot of economists will note that all things being 
equal, price elasticity can be expected to be greater under 
higher prices. In other words, behavior will change in relation 
to higher prices.
    Although it is difficult to estimate, elasticities are 
higher with non-linear increasing block prices or pricing than 
they are under linear uniform prices. It has been estimated 
that as of 2000, and this is the last study I have been able to 
find, one-third of residential water customers were already 
under an IBP regime, but that is really a far cry from where we 
need to get as a Country.
    IBPs may simply make prices more salient to consumers. In 
other words, they see it and they feel it in their pocketbook. 
Improvements in the presentation of water price information on 
water bills has shown to increase consumers' price 
responsiveness, and IBPs seem to provide a similar signal.
    That said, price structure, income, demographics, rainfall 
and weather, seasonal factors including evapotranspiration 
rates appear to influence price responsiveness. That is, again, 
the elasticity of demand. Thus, when setting conservation 
prices or rates, it is important to use background elasticity 
information from local studies, regional studies and the like.
    All this is to say a lot more research is required for this 
to make sense. Of course, equity must be reconciled with 
efficiency. The sophistication of these new price structures 
must deal with poor people, low income people. We need to 
guarantee a household what they need to survive and to prosper 
as a household. But when you move up the scale to greater 
consumption, you know, watering your lawns with electronic 
devices, using swimming pools, drought conditions, the price 
should reflect the scarcity of the resource.
    Thank you for your time, Mr. Chairman.
    
    [The prepared statement of Mr. Mehan follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Cardin. Thank you very much.
    We will start this round of questioning with Senator 
Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    And let me thank you on being the first of our class out of 
the block to chair a subcommittee hearing and get it organized 
and together. It is an honor to be here with you and I salute 
you on being the first to go.
    [Laughter.]
    Senator Whitehouse. For the witnesses, my question is about 
bottled water. When you are talking about the waste associated 
with water use, it is hard to overlook the extraordinary waste 
of energy and oil and everything associated with bottle water. 
Many people will walk by a tap that at the flick of a wrist 
will produce better quality water than the water that has been 
sitting in that plastic bottle for however long, or at least as 
good.
    How is it that we begin to attract Americans back to the 
tap, assure them that the quality of water that they are 
drinking is as good, if not better than the bottled water, and 
reduce the energy waste associated with bottled water?
    I am told that every time you pick up a bottle of water, if 
you can imagine it being one-quarter filled with oil, that is 
about how much it takes to get that water to you in order to 
drink that bottle of water.
    I would be interested in hearing the panel's thoughts on 
that question.
    Ms. Davis. It is an extraordinary phenomenon and an 
interesting marketing question. The United States, the water 
quality here, is the envy of the world.
    Senator Whitehouse. I am the son of a Foreign Service 
family. I grew up in places where you actually couldn't drink 
the water, so it is particularly astounding.
    Ms. Davis. Exactly. And yet, what we have developed in the 
United States is a market of convenience where the bottled 
water has met a need in the sense that people that are, oh, I 
want a glass of water, will then go to the market and buy 
something that is cold. And I don't think they realize the full 
cost of that water, both in terms of the cost of the bottling 
of the water, which is no different.
    It is just tap water that has in most cases been put in the 
bottle. There is no difference in quality. It is the same 
quality, except for the fact that you do have issues related to 
when you open up the plastic bottles and then you get heat and 
that kind of a thing. You can end up with some water quality 
issues.
    I think at the end of the day, there is an interesting 
campaign going on in California where a citizen group is now 
distributing the new special water bottles that don't have any 
kind of degradation problem. And they are distributing it and 
calling it Take Back the Tap, with the notion that if it is a 
matter of convenience, we can supply that convenience by the 
right container and trying to get the container in the hands of 
people so they can refill them easily and therefore have the 
convenience of having drinking water when they want it.
    Senator Whitehouse. Anyone else, in a minute and a half?
    Ms. Dickinson. Yes, I would like to comment on that. I 
think the phenomenon of bottled water has arisen primarily 
because of two reasons. One, the consumer doesn't necessarily 
trust the taste factor coming out of the tap. It is the 
chlorine residual that often is not very attractive from a 
taste perspective. And when I worked for a water utility in 
Connecticut, near Rhode Island, we did a bottle-your-own 
campaign where we actually encouraged people to take the glass 
bottles that we gave them and refrigerate the water, because 
once the water was refrigerated over a period of time that 
chlorine residual would no longer be noticeable in a taste.
    And that was one factor, was the taste issue that we 
noticed. That was why people were drinking a lot of bottled 
water.
    But the second one is really very simple. We have lost the 
public drinking fountain. It has become, you know, a scuzzy 
disgusting facility that, for the most part, people will not 
want to drink from anymore. And from a technology perspective, 
there are ways to fix that problem and we should think about 
how we can make public water supplies available on a public 
fountain basis that is sanitary, that is going to provide the 
measure of comfort level to the user.
    I am a tap water drinker and I struggle to find public 
fountains in airports and other public places. They are just 
disappearing, largely disappearing from our buildings. And so I 
think that is part of what we need to also look at, is how we 
provide the substitute for the consumer that wants to make that 
switch.
    Senator Whitehouse. More infrastructure, Mr. Chairman. 
Infrastructure.
    [Laughter.]
    Senator Whitehouse. I thank the witnesses.
    Senator Cardin. Senator Udall.
    Senator Udall. Thank you, Chairman Cardin, very much. And 
congratulations to you also for being the first in your class 
to hold a hearing. I served with you in the House and we have 
always known you were a great leader, and you are once again 
leading out, and you beat Sheldon to the punch. That is the 
thing I like.
    Senator Cardin. Your class is coming soon.
    Senator Udall. OK, OK, as soon as you get me one of those 
chairmanships.
    Senator Cardin. Right.
    Senator Udall. But I'd like to put my opening statement in 
the record and just go directly to questions.
    [The referenced material was not received at time of 
print.]
    Senator Cardin. Without objection, all Members of the 
Committee will have the opportunity to include opening 
statements. We have heard from Senator Inhofe who had planned 
to be here, will not be able to be here, and his opening 
statement will also be included in the record.
    Senator Udall. There was some discussion early on about 
through the panel, and thank you all for being here; we very 
much appreciate your testimony, on the issue of desalination. 
And that is a big issue in the west, because we are seeing an 
interest in getting into these brackish underground aquifers 
and bringing them up and desalting them.
    And developers are looking at different ways to get water 
supply there. But it is my understanding there are several 
concerns. First, the process is very energy intensive, so in 
order to desalinate water on large scales, we would be forced 
to consume large amounts of new power, the equivalent of 
several very large power plants.
    Second, these inland saline aquifers, unlike freshwater 
aquifers or the ocean, are nonrenewable and may not recharge 
naturally. As a result, the price for desalinated water is much 
higher than from freshwater resources.
    I would like to ask you, any of you, to comment on this. If 
all the desalination research we talked about, the projects, 
the research, we push the envelope on it, how realistic are the 
efforts on a large scale in the near term, say 5 years? And how 
much can we expect to bring the costs down, if you talk about 
where the cost is now and how far we would bring it down?
    Mr. Shannon. OK. I would like to weigh in on this. I think 
this is a fantastic question you asked, Senator, and it is 
something that we spend lots of our time thinking about.
    Right now, there are efforts around the world to bring the 
cost of energy use and desalinization way down. In fact, we are 
being funded by groups out of the EU and Saudi Arabia to do 
just this, to be able to use solar-powered desalination of both 
sea water and inland.
    And so there is a group that is now working on cogenerating 
energy, generating energy at the same time you are generating 
water, and having the brine so concentrated at near zero 
discharge that you can get at that inland issue. There are key 
issues that one can do there, and I think the costs can be 
brought down considerably from where it is currently at.
    That is one of the things that we talk about. We are not 
near the natural law limits, and when people think about it, 
they think about known technologies. And known technologies are 
very energy intensive that are currently being used.
    The other issue is that if you are trying to transport 
water long distances, this is one of the things that people 
don't really compare, as discussed, taking the water over the 
Tehachapis. That takes just as much energy as it takes to 
desalinate water from sea water, so one needs to compare those 
two costs.
    But there is research going on. Unfortunately, not a lot in 
this Country, but a lot of research going on overseas and large 
companies are looking at developing new technologies. We should 
see the energy drop by a factor of two to four over current 
technologies, and being able to do this recovery.
    If you couple it with the reuse factor, where you can then, 
after it has been desalinated and use the non-potable water, 
you can then drop the total water needed by a factor of four as 
well.
    So I think it does become quite possible in these arid 
regions to be much more efficient about use of water. These 
deepwater aquifers that you are referring to, many places are 
already getting to that point. Outside of El Paso, Texas, the 
water is so deep that they are now desalinating and spending a 
lot of water to re-inject it down into the deep oil wells.
    So the technologies are here, but they can be made much 
better, I guess, is the take-home message.
    Mr. Mehan. Mr. Chairman, I would associate myself with Dr. 
Shannon's remarks completely. I would also maybe call your 
attention, Senator, to a recent report by the National Research 
Council on desalt technologies. It is a very good report. It 
does point to just the cost dropping like an anchor, and that 
is going to continue. But there are residuals. There are issues 
that require further research.
    I think there are some good American companies working in 
this area like G.E. and Dow, and they would be very pleased to 
come in and tell you how the technologies are improving and the 
costs are dropping.
    So it is part of the solution. I am not one that thinks 
that technology will save us. That is why I believe in full 
cost pricing and conservation pricing and water efficiency. But 
it is definitely a bright spot on the horizon. And when you 
look at the application of those same technologies to water 
reuse and recycling, tremendous opportunities.
    Ms. Davis. If I might add just one point, I agree with the 
foregoing comments, and I just would add that desalination, 
particularly in the interior areas, needs to be looked at. And 
an integrated water management strategy, which is exactly what 
we are doing within the Chino Basin. We have two desalters that 
are operating now that are helping us to reclaim water that 
otherwise would not be usable. We are integrating that water 
supply into treated water into our water supplies.
    So we are generating right now about 26,000 acre feet of 
new water supplies from the treatment of brackish groundwater 
that otherwise would not be available. We were able to 
integrate the project with renewable energy development of 
biogas from a digester. We actually did a partnership with the 
agricultural community. So we are taking dairy manure and 
treating it and producing the biogas that then runs the 
generation at the desalter.
    And then we are also looking at recharge strategies with 
recycled water, where because we are taking the salts out of 
the groundwater basin, our regional board under the Clean Water 
Act is enabling us to go ahead and use recycled water as part 
of the replenishment cycle, along with stormwater and imported 
water, to manage the groundwater basin.
    So in a bigger picture, how do we fit all of these 
different water strategies together? And I would also concur 
that we are really very low on the learning curve of really how 
to do this and to figure out ways in which our local water 
supplies can be optimized, maximized in order make these 
strategies really work and drought-proof our economies.
    Senator Udall. Thank you, Chairman Cardin.
    We have, as you know, hearings at the same time. I would 
love to stay at this the entire time, but I am going to have to 
get over to the Commerce Committee.
    Senator Cardin. We appreciate your being here.
    Senator Udall. Thank you.
    Senator Cardin. We certainly understand that.
    One of the things that is different between the Senate and 
the House that Senator Udall and I both experienced. In the 
House, we serve on one or two committees. In the Senate, they 
put us on four or five committees. So I think they try to keep 
you out of trouble by having you at hearings all day long.
    Professor Shannon, you pointed out in your charts and in 
your comments the benefits from research in the area of water 
efficiency. Could you just comment how the Federal Government 
compares in its commitment to supporting research for water 
efficiency with perhaps what is happening in other countries or 
in the private sector?
    You heard EPA testify earlier. We do have research 
programs. They are not centered only on water efficiency, but 
they do cover water efficiency. How do we compare to what is 
happening around the universe on water efficiency research?
    Mr. Shannon. Well, thank you very much.
    I actually have been traveling the world trying to answer 
this exact question. I went to Switzerland because Switzerland, 
you know, is a country of 7.7 million people. And they are 
spending about $400 million a year on it right now. And you are 
saying, well, why would they be doing this? This is a water-
rich country. It is beautiful.
    It is because they are a net-exporting energy nation in 
electricity and their snowpack storage and glacial storage is 
decreasing. And so they have decided to become very efficient 
about water, and moved to a lot of reuse, looked at low water 
footprint technologies for energy and other applications, so 
that they can become self-sustaining when this snowpack storage 
disappears.
    Singapore is investing some $300 million over 5 years and 
getting concurrent investments by, unfortunately, U.S. 
companies. On March 19, G.E. just announced they are investing 
$100 million in the effort in Singapore. And unfortunately, it 
is not coming to the United States.
    The Netherlands, a country of 16 million, also invests on 
the order of $100 million a year on water reuse and 
conservation technologies. China, it is very difficult to tease 
where China is, but China is spending lots of money at this 
point, as well as India.
    So we are seeing this resurgence around the Country. And so 
much so that our students that we are graduating with Ph.D.s 
are being literally taken away and given great salaries, and we 
are seeing a reverse brain drain, leaving this Country, which 
is very disturbing to me, particularly when one thinks about it 
and projects it out into our future.
    So, you know, in comparison, our investments are quite 
modest in total, not even comparing against population. I think 
our needs, actually, are quite high. So I think there is a 
mismatch in our investments versus other countries.
    Senator Cardin. One of the strategies we have tried to use 
on energy efficiency and renewables is that it is good economic 
sense for Americans. Our technology and jobs should stay here. 
I think same thing is true with water efficiency, that we are 
losing an economic opportunity here that we need to figure a 
strategy to deal with.
    That leads me, Mr. Mehan, to your point about pricing of 
water, which would be a rather controversial issue if we tried 
to put the true cost of water on the users. It wouldn't be a 
popular decision by those who have to run for office locally.
    But you raise a very good point. I want to take it to a 
different level, though. You say you then reward water 
efficiency, which I agree. Use less, you are rewarded on the 
price structure. But it seems to me that with volume purchases, 
you might work counter to that.
    Have you thought about how you deal with the volume issue, 
with efficiency, so that we use less, but still have a pricing 
mechanism that reflects true cost?
    Mr. Mehan. Absolute key issue, Senator. Unfortunately, I 
didn't have time to get to it in my testimony, my oral 
testimony. But in my paper testimony submitted, I discuss the 
whole issue of decoupling, which is not a new issue in the 
energy field, but it is still a new issue in the water sector. 
Decoupling, in other words, pricing of revenue for the water 
system from volumetric sales.
    Certainly, California I think has done this I think on 
energy, and ahead of that. But we haven't really begun to 
explore the kinds of price structures that would allow us to 
take the incentive out of selling a lot of water. I don't know 
how many corporate environmental officers I have talked to who 
have said you know, we have put in this really wonderful water 
efficiency program in our plant. We cut our water use, and then 
our water rates went up. And as I remember, one officer from 
Coca-Cola in particular said that sends a very mixed signal.
    And I think that points to the problem and the need to 
explore decoupling between volumetric sales and a legitimate 
rate of return for the water system. Key issue, and one that 
could use a lot of research work, and I cite my written 
testimony.
    Senator Cardin. Well, I appreciate that. I think that can 
be very helpful to us.
    Ms. Davis, what are the major obstacles in the way of 
utility companies adopting water efficiency types of 
improvements?
    Ms. Davis. You know, for a long time, they have been 
willing to move along with programs that supported their 
customers in being more efficient. And so it has been dominated 
over the last decade or so with a focus on provision of rebates 
for more water efficient devices, like the ultra-low flow 
toilets. And quite frankly, they have been very successful.
    The city of Los Angeles today announces that it is using 
the same level of water supplies as they did in 1990, even 
though their population has grown by over 1.5 million to 2 
million people. They credit back to simply the programs of 
switching out toilets and putting in, building in structural 
water efficiency.
    What is happening in California and I think some of the, 
you will see the same issues carrying across the Nation, is how 
do you take the next step in building in efficiency? And I 
think there has always been a fear factor that in part in 
asking people to be more efficient, that maybe you are asking 
them to change their lifestyle or to make choices that they 
don't want to make.
    And I think we see this debate in the outdoor sector very 
visibly exposed, where people are saying, if you ask me to 
reduce my outdoor landscaping, does that mean I get to keep a 
lawn?
    And I think what we are seeing now emerging, but there is a 
lot more work to be done on it, is how we can encourage people 
to have very attractive outdoor landscaping that is water 
efficient, that has these other benefits.
    And for most water agencies, it is a new frontier of 
getting into recommendations that would go so foundationally 
into the way that people have structured their landscapes and 
their communities.
    Senator Cardin. Thank you for that.
    Ms. Dickinson, I appreciated your comments on the 
WaterSense program. You did something which is kind of unusual. 
You gave us a specific number, $10 million. I am curious how 
you arrived at that number.
    Ms. Dickinson. Well, I came up with $10 million because I 
wanted to at least get within shooting range of the Energy Star 
funding. So that is one-quarter of the Energy Star funding. It 
would be wonderful to have even more than $10 million, but that 
is already a fourfold increase over their current levels, and I 
thought maybe more than $10 million might not be easily 
justified.
    But clearly, I believe that additional investment in the 
WaterSense program will yield a lot more results, which will be 
positive in the marketplace.
    Senator Cardin. Well, I agree. We are going to have to take 
a look at that. I don't think there is any disagreement about 
the need to center in on greater acknowledgment of water 
efficiency issues and WaterSense helps us in that. We need more 
research. We certainly need to concentrate on the cost-benefits 
of water efficiency that the pricing issues, I think, point 
out.
    The difficulty is do we take it out of existing, 
reprioritize, or do we add additional resources? And in a tough 
economic period that we are in now on budgets, it is going to 
be very difficult to see new funds made available.
    So one of the challenges to all of us is whether we can 
reprioritize within the resources that are currently being 
used. That may be a matter for another day's discussion, but I 
think you all have made a very convincing case that we need to 
get the right public attention on water use and the concerns 
about water supply in America and international, and the fact 
that we can do a much better economic job for our Nation in 
better use of energy and better use of our natural resources.
    Our challenge will be how the U.S. Senate and Congress can 
work with this Administration to develop policies that will 
move these issues forward. Your testimony here today has 
certainly helped us in giving us the information necessary to 
move forward. So I thank all of you for your testimony. This 
will be a continued interest for our full Committee. I know 
Chairman Boxer is very interested in moving forward in this 
area, and we will take the information from today and move 
forward.
    Thank you all very much.
    Our Subcommittee will stand adjourned.
    [Whereupon, at 11:18 a.m. the subcommittee was adjourned.]
    [An additional statement submitted for the record follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Today we are focusing on a very small piece of a very large 
issue: water efficiency. Our Nation currently has hundreds of 
billions of dollars of needs in both clean water and drinking 
water infrastructure. Many of our systems are reaching the end 
of their lifetimes and are going to need replacement and repair 
in the future. Using water more efficiently is one way we can 
help extend the life of current systems and is important for 
planning for the future. Additionally, we can help address this 
need through a continued commitment to infrastructure. I am 
looking forward to working with Chairman Cardin and Ranking 
Member Crapo on the water infrastructure bill.
    Consumers understand the importance of saving energy. 
Energy prices have risen around the Country and many people 
have chosen to cut their energy costs by purchasing products 
that save them money, such as more energy efficient appliances. 
EPA's Energy Star program has been a great example of a public-
private partnership that relies on market based principles to 
drive technology forward. EPA is working to do the same thing 
with its Water Sense program. Using the market and public-
private partnerships along with education, water efficiency 
programs can be widely successful in saving water for 
communities and money for consumers.
    Using water more effectively helps reduce strain on 
existing water treatment plants and can help areas like 
Oklahoma, which has had to deal with drought conditions for 
several years, better use the water that is available. In 
addition to helping stretch our water resources further, water 
savings also saves energy. EPA estimates that 4 percent of the 
Nation's electricity consumption is used moving or treating 
water and wastewater. In homes with electric water heaters, 25 
percent of their electricity consumption is used to heat water 
for cleaning and cooking.
    I know there is a great interest in using water more 
efficiently. Currently, my home State of Oklahoma is doing a 
comprehensive State water plan. One of their main objectives is 
to focus on ways to improve water efficiency and water 
conservation. Additionally, the State legislature created a 
grant program last year to assist communities to implement 
pilot water conservation projects in Oklahoma communities. 
These projects will serve as models for other communities and 
result in significant water efficiency improvements and water 
savings. I believe that projects like these will demonstrate 
new cost-effective technologies and help spur new markets.
    I am looking forward to hearing from EPA what they are 
currently doing to promote and improve water use efficiency, 
what research and development initiatives they have begun and 
how they are reaching out to the public to educate them about 
opportunities to improve their water efficiency. I am also 
interested in discerning what some of the current barriers are 
with assisting and encouraging people to become more water 
efficient and if there is a role for Congress to play.
  

                           [all]
                           
                           
</pre></body></html>
